    June 22, 2004




Financial Management
Corps of Engineers Equipment
Reporting on Financial Statements
for FY 2003 (D-2004-092)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CEFMS                 Corps of Engineers Financial Management System
IG DoD                Inspector General of the Department of Defense
PP&E                  Property, Plant, and Equipment
USACE                 U.S. Army Corps of Engineers
          Office of the Inspector General of the Department of Defense
Report No. D-2004-092                                                      June 22, 2004
   Project No. D2004FJ-0033

            Corp of Engineers Equipment Reporting on Financial
                          Statements for FY 2003

                                Executive Summary

Who Should Read This Report and Why? U.S. Army Corps of Engineers officials and
personnel responsible for financial reporting should read this report. It discusses issues
related to the financial reporting of equipment on the financial statements.

Background. Equipment comprised approximately $634 million of the Property, Plant,
and Equipment that the U.S. Army Corps of Engineers reported on its June 30, 2003,
financial statements. On August 20, 2003, we reported that the amount the U.S. Army
Corps of Engineers included for equipment on the financial statements was not complete
or adequately supported. In response to the report, the U.S. Army Corps of Engineers
revised its policy to comply with the audit recommendations and began to implement the
new guidance.

Results. U.S. Army Corps of Engineers indicated on 31 October, 2003, that its
equipment records were ready for audit. Therefore, we tested the equipment records to
determine whether they fully supported the value the Corps claimed for equipment. The
Corps had made significant improvements in reporting equipment. Problems with
collection and presentation of equipment data were corrected, and supporting
documentation was available for the majority of the equipment items that the Corps
reported. However, despite significant progress the process still had some weaknesses.
The Corps could not provide adequate supporting documentation for all of its equipment
assets. The documents were either unavailable or failed to match information in the
automated data system. We projected that these deficiencies occurred in equipment
valued at $14.5 million. Although the deficiencies existed, the amounts were not material
and we concluded that the value of equipment the U.S. Army Corps of Engineers
reported on the FY 2003 financial statements was not materially misstated. However,
actions were still needed to ensure that all equipment values are fully supported by the
end of FY 2004. Unsupported equipment values can increase the overall materiality of
error in the Balance Sheet of the U.S. Army Corps of Engineers Financial Statements.
(See the Finding section of the report for the detailed recommendation.)

Management Comments. The Commander, U.S. Army Corps of Engineers concurred
and stated that he would direct the Director of Civil Works to continue to take action to
enforce policy to use all available methods to value equipment for which no historical
documentation exists. He set September 30, 2004, as the goal for completing this action.
See the Finding section of the report for a discussion of management comments and the
Management Comments section for a complete text of the comments.




                                          ii
Table of Contents
Executive Summary                             i

Background                                    1

Objective                                     1

Finding
     Equipment Financial Reporting            3

Appendixes
     A. Scope and Methodology                 9
         Management Control Program Review   10
         Prior Coverage                      10
     B. Report Distribution                  12

Management Comments
            U.S. Army Corps of Engineers     14
Background

    The audit was performed in support of Public Law 101-576, the “Chief Financial
    Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-356,
    the “Federal Financial Management Act of 1994,” October 13, 1994. The
    Inspector General of the Department of Defense (IG DoD), is required to audit the
    annual financial statements of the Department of Defense. This report is a result
    of work performed in support of the audit of the Corps of Engineers FY 2004
    Financial Statements.

    The U.S. Army Corps of Engineers (USACE) Civil Works mission falls into four
    broad areas: water infrastructure, environmental management and restoration,
    response to natural and manmade disasters, and engineering and technical
    services to the Army, DoD, and other agencies. USACE uses several different
    types of equipment assets to perform its mission such as forklifts, trucks, cranes,
    barges, and boats. The equipment portion of property, plant, and equipment
    (PP&E) generally includes assets with an acquisition value of $25,000 or more. It
    does not include land, buildings, structures, and construction-in-progress. The
    value of Equipment in the USACE principal statements in FY 2003 was
    $634 million.

    The DoD Financial Management Regulation, Volume 4, chapter 6, August 2000,
    defines General PP&E, which includes equipment, as tangible assets that:

       •    have a useful life of two years or more,

       •    are not intended for sale,

       •    are acquired or constructed with the intention of being used by the entity,
            and

       •    have an initial acquisition cost, book value, or an estimated fair market
            value that equals or exceeds the DoD capital asset threshold.

    The regulation requires that supporting documentation for the assets be
    maintained by the owner in a readily available location during the required
    retention period. This permits the validation of information pertaining to the
    asset, including acquisition cost, acquisition date, and cost of improvements.

Objective
    Our overall audit objective was to determine the reliability of the USACE Civil
    Works equipment as presented in the General PP&E line item in the financial
                                          1
statements. We concentrated this audit on determining whether the USACE had
corrected deficiencies related to the universe of data provided for equipment and
supporting documentation related to valuation of equipment, that we reported at
the end of FY 2002.

We reviewed the management control program as it relates to the objective. See
Appendix A for a discussion of the scope and methodology, and our review of the
management control program.




                                     2
            Equipment Financial Reporting
            USACE significantly improved the documentation for equipment that it
            made available for audit. Earlier problems with universe data were
            corrected, and supporting documentation was available for the majority of
            equipment items maintained by USACE. Despite the significant progress,
            USACE did not provide all the documentation needed to support the value
            of equipment assets it reported in its FY 2003 Civil Works financial
            statements. Supporting documentation for a projected $14.5 million of
            equipment assets was either unavailable or did not match information in
            the automated data system. We attributed the unsupported amounts to
            insufficient attention to implementing the improved policy at some
            USACE activities. Although these valuation problems existed, we
            concluded that the amount of equipment the USACE reported on its
            FY 2003 financial statements was not materially misstated. However,
            actions were still needed to ensure that all of the equipment values are
            fully supported by the end of FY 2004. Unsupported equipment values
            can increase the overall materiality of error in the Balance Sheet of the
            USACE financial statements.

Results of FY 2002 Review

     In August 2003, we reported that USACE could not produce adequate information
     to support the value it reported for equipment in its FY 2002 financial statements
     (IG, DoD, Report No. D-2003-123, “Corps of Engineers Equipment Reporting on
     Financial Statements for FY 2002,” August 20, 2003). We reported that the
     equipment universe provided by USACE for the audit was $49.3 million less than
     what was reported on its financial statements. Also, of the $650.8 million
     disclosed on the FY 2002 financial statements as the value of equipment, about
     $47.5 million was not adequately supported. As a result, the total error for
     FY 2002 was $96.8 million.

Corrective Action Policy

     To improve the quality and amount of documentation being maintained to support
     the equipment value, USACE issued a corrective action policy in August 2003.
     The policy required the following:
            Every asset on the Corps Balance Sheet must have a historical supporting documentation
            file that contains all of the documentation through each phase of the asset’s life cycle
            from acquisition to disposal. Therefore, each district needs to provide the necessary
            supporting documentation and validate or correct the current recorded Corps of Engineers
            Financial Management System (CEFMS) information. Additionally, these documents in


                                              3
           conjunction with any funding, acquisition or appraisal documents should be maintained
           in an asset historical document file for six years beyond disposal.

           Equipment values should be adjusted to reflect additions to and retirements of plant in
           service, either with or without replacement.

           If an asset was transferred-in, the transferring entity must timely forward a copy of their
           asset documentation file to the receiving activity. As a last resort the Internal Equipment
           Valuation (in Lieu of Supporting Documentation) form should be maintained in the asset
           file. Districts that have maintained all cost documents for transferred equipment must
           forward those documents to the appropriate district office.

    USACE management implemented this policy intending to improve the financial
    reporting of equipment for FY 2003 and future years.

    Subsequently USACE indicated to us that improvements were in place that
    rendered its records for equipment ready for audit. To determine if the policy had
    been implemented and had corrected the deficiencies reported, we statistically
    selected 40 USACE activities to review supporting documentation.

Results of FY 2003 Review

    USACE significantly improved the documentation for equipment that it made
    available for audit. Problems with inaccurate universe data were corrected and
    supporting documentation was available for the majority of equipment items
    maintained by the USACE.

    Universe Information. In our August 2003 report, we reported that USACE did
    not provide a complete equipment universe for the audit of the FY 2002 financial
    statements. At that time, the equipment universe provided by USACE was
    $49.3 million less than what was reported on its financial statements. This
    problem had been corrected for FY 2003. We determined that a complete
    universe was provided for us to perform the audit work. We verified that USACE
    had corrected the previous inaccurate calculation of the audit universe, that is,
    inappropriate omission of capitalized equipment assets.

    Support For Valuation. In June FY 2003, USACE reported its equipment was
    valued at $634 million. To determine the accuracy of the stated value, we
    statistically selected 316 equipment assets for review at 40 of the 65 USACE
    reporting activities for review.




                                               4
The locations sampled and the amount of equipment at each location are shown in
Table 1. Where the support column is blank, support was adequate.

                                      Table 1.

                       Number of                 Value of       Support for
Location               Sample Items              Sample Items   Value
                                                 (millions)

Portland                   8                       $92.1
Memphis                   16                        70.7
New Orleans               14                        67.9
Vicksburg                 37                        39.8        Not fully supported
St. Louis                 15                        36.8
Rock Island               25                        34.5        Not fully supported
Louisville                11                        33.6
Mobile                    17                        16.9
Huntington                16                        15.9        Not fully supported
Philadelphia              11                        12.1        Not fully supported
Pittsburgh                10                        10.7        Not fully supported
Detroit                    8                        10.1
Walla Walla                9                         8.3
Nashville                 13                         7.5
Galveston                  9                         6.5        Not fully supported
Eng Waterways             22                         5.4
New York                   7                         3.8        Not fully supported
Little Rock                8                         3.7
St. Paul                   6                         3.2
Norfolk                    3                         2.8
Tulsa                      4                         2.4        Not fully supported
Humphreys Eng Center       1                         1.7
New England                2                         1.2
Jacksonville               2                         1.2
Baltimore                  4                         1.1
Chicago                    1                         1.1
Sacramento                 3                         0.6        Not fully supported
Seattle                    5                         0.5        Not fully supported
Savannah                   3                         0.5
Omaha                      6                         0.4        Not fully supported
San Francisco              3                         0.3
Washington Aqueduct        3                         0.2        Not fully supported
Charleston                 2                         0.2
Honolulu                   1                         0.1
Los Angeles                5                         0.1
Kansas City                1                           0
South Atlantic             1                           0
Wilmington                 2                           0
Ft. Worth                  1                           0
Finance Center             1                           0

In summary, equipment at 28 of the 40 locations with a value of $366.5 million
was fully supported.

                                      5
There were deficiencies at the remaining 12 activities, which had not fully
implemented the policy or where errors were made in data entry. Table 2
identifies the seven activities that had equipment valuation deficiencies because
the activities had not fully implemented the new documentation policy.

                                     Table 2.
                      Number of              Items found to be          Value
       Activity       Sample Items           Unsupported                Unsupported

       Galveston               9                     4                  $1,081,712
       Huntington             16                     6                   5,674,961
       New York                7                     5                     420,823
       Omaha                   6                     5                      61,269
       Philadelphia           11                     2                     886,811
       Rock Island            25                     4                     270,805
       Seattle                 5                     1                      66,938


The other five locations had documentation that showed equipment values that
were different from that shown in the automated data system, CEFMS. Table 3
shows the equipment valuation data errors at the remaining five activities.
Generally, these deficiencies were the result of input errors. For example, we
reviewed CEFMS records that described a patrol boat that the Sacramento District
purchased on December 29, 1997. The boat’s net book value reported on the
FY 2003 financial statements was $25,538.96. However, the District entered an
incorrect purchase date of April 7, 1999, causing an overstatement of the value of
the assets by $10,768.

                                     Table 3.
                      Number of          Number of           Value of
       Activity       Sample Items       Errors              Errors

       Pittsburgh             10             1               $ 1,957
       Sacramento              3             2                16,248
       Tulsa                   4             1                51,717
       Vicksburg              37             3                44,928
       Washington              3             1                22,180


The data entry errors were relatively minor. The greater portion of the
deficiencies were caused by not implementing the new policy.

Statistical Projection of the Results. Based on a statistical sample of USACE
equipment assets, the projected statistical midpoint of equipment values that were
not adequately supported was $14.5 million. (Details on the statistical projection



                                     6
    are presented in Appendix A.) We concluded that the value of equipment at the
    majority of the locations was not materially misstated.

Improving the Supporting Data

    Even though the $14.5 million in unsupported values and errors was immaterial in
    relation to the overall balance reported for equipment, it did indicate activities had
    not achieved full compliance with the USACE policies.

    The USACE personnel indicated that the primary cause for the unsupported
    values was that the USACE activities did not have sufficient time to adequately
    estimate and support the value of their equipment assets for which historical cost
    documentation was no longer available.

    Acceptable procedures for valuing assets for which historical cost documentation
    is no longer available include:

           •   current working estimates prepared for acquisition,

           •   appropriation or other Congressional information,

           •   Plant Replacement and Improvement Program documentation.

           • development of an estimate based on the cost of similar assets at the
           time of original acquisition, and

           • current cost of similar assets, discounted for inflation since the time of
           acquisition.

    The USACE policy directed that where an estimating method is used, it should be
    documented on the USACE “Internal Equipment Valuation” (in Lieu of
    Supporting Documentation) form, and certified by responsible personnel.

    USACE issued this policy in August 2003 and some activities indicated that, at
    the time of our audit fieldwork early in FY 2004, they did not have sufficient time
    to fully implement the policy.

    At the time of our testing, those activities that had not completed the procedures
    for developing documentation or for researching historical documentation, had a
    valid claim that sufficient time had not been available. However, we followed up
    on those activities 4 months after our initial tests were performed and, as of the
    end of January 2004, three of the seven activities (Huntington, New York, and
    Omaha Districts) still had not fully implemented the policy.

                                          7
Conclusion

    Although the amounts of unsupported equipment values were not material, The
    USACE needed to continue to take action to correct the remaining deficiencies to
    ensure that all of its activities appropriately value all equipment assets.
    Completion of these actions will prepare USACE for future audits and ensure
    improvement in documentation of equipment values.

    Unsupported equipment values can increase the overall materiality of error in the
    Balance Sheet of the USACE financial Statements. The aggregate error of all
    items on the Balance Sheet is used to determine whether the Balance Sheet taken
    as a whole is materially misstated. The correctable error in the equipment line
    needs to be addressed to prevent jeopardizing an overall opinion on the USACE
    Balance Sheet.

Recommendation and Management Comments

    We recommend that the Commander, U.S. Army Corps of Engineers direct
    the Director of Civil Works to continue to take action to enforce existing
    policy that requires that all of its activities use all available methods to
    properly value equipment for which no historical cost documentation exists
    by September 30, 2004.

    Commander, U.S. Army Corps of Engineers Comments. The Commander,
    U.S. Army Corps of Engineers concurred and stated that he would direct the
    Director of Civil Works to continue to take action to enforce policy to use all
    available methods to value equipment for which no historical documentation
    exists. He set September 30, 2004, as the goal for completing this action.




                                        8
Appendix A. Scope and Methodology
   We reviewed information related to the USACE financial statement reporting of
   equipment assets valued at $634 million as of June 30, 2003. We used a
   statistical sample of capital assets recorded in the CEFMS database. Our sample
   included 316 items. We also made inquires of personnel from USACE
   Headquarters and 40 USACE activities.

   We performed this audit from July 2003 through March 2004 in accordance with
   generally accepted government auditing standards.

   At the start of the audit, USACE provided us a database of the capital equipment
   assets recorded in CEFMS. We decided to statistically select a sample of assets
   for review from the population of 7,372 assets of capital equipment recorded in
   CEFMS for FY 2003.

   A stratified sample design was used. The first stratum was a census of items
   valued greater than, or equal to, $500,000. The second stratum consisted of items
   greater than $50,000, and less than $500,000. The third stratum consisted of
   items greater than, or equal to, $0 but less than, or equal to, $50,000.

   The determination of an appropriate sample size was based on information from
   prior audit work and professional judgment. The statistical selection resulted in a
   sample of 316 assets located at 40 USACE activities.

   Our statisticians calculated the following projections for the $634 million of
   capital equipment the USACE reported for FY 2003. The projections were
   calculated using information we supplied on the equipment assets that we
   determined had values that were not adequately supported.

   We are 95 percent confident the total of dollars not adequately supported is
   between $10,894,257 and $18,099,462. The point estimate (that is, mid-point of
   the equipment values not supported) was projected to be $14,496,860.

   Use of Computer-Processed Data. We relied on computer-processed data from
   CEFMS to determine which districts to visit and to make the audit sample
   selections. We did not test the general and application controls of the system, and
   we considered this in determining our sample selection population. We
   performed other tests on the data to determine the accuracy and reliability of the
   Equipment account balances. Nothing came to our attention as a result of
   specified procedures that caused us to doubt the reliability of the computer-
   processed data.



                                        9
    Use of Technical Assistance. We received assistance from the Quantitative
    Methods Division in the Office of the Inspector General of the Department of
    Defense. Specifically, we had help determining our statistical sampling plan and
    also in the statistical analysis and projection of our audit results.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the financial management high-risk area.

Management Control Program Review

    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the USACE management controls over the financial reporting of
    equipment. Specifically, we reviewed the USACE management controls over
    data-gathering to provide a complete universe and maintaining supporting
    documentation for equipment assets records and files. Because we did not
    identify a material weakness, we did not assess management’s self-evaluation.

    Adequacy of Management Controls. Management controls were adequate as
    they applied to the objective.

Prior Coverage

    During the last 5 years, the Inspector General, DoD, and Army Audit Agency
    each published one report on the USACE, Civil Works - equipment. Unrestricted
    IG DoD reports can be accessed at http://www.dodig.osd.mil/audit/reports. Army
    Audit reports can be accessed at https://www.aaa.army.mil/reports/.htm, which is
    accessible on the extranet to military domains and GAO only.

IG DoD
    Inspector General, DoD, Report No. D-2003-123, “Corps of Engineers Equipment
    Reporting on Financial Statements for FY 2002,” August 20, 2003




                                       10
Army

   Army Audit Agency Report No. AA-02-142, “Fiscal Year 2001 Financial
   Statements US Army Corps of Engineers, Civil Works,” February 08, 2002




                                    11
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, U.S. Army Corps of Engineers

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
                                          12
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont.)
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        13
Department of the Army Comments




                    14
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Service prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who contributed
to the report are listed below.


Paul J. Granetto
James L. Kornides
John K. Issel
Eric T. Thacker
Clarence E. Knight III
Walter J. Carney
Terry D. Holdren
John P. Frawley
Carlisa Miles
Lusk F. Penn
Karen M. Bennett
Catherine Bird
